                              IT11
>-




                       I             C*




                                            NATIONAL SCIENCE FO
                                             OFFICE OF INSPECTOR


                                          CLOSEOUT MEMORANDUM




     1. Initial Allegation:




     5. Final Disposition:
     This case is closed.
            .y   NSF,.
                  --
             OFFICE
                   ;.';



       INSPECTOR GENERAL
                                OF
                                                                  1I
                                                                       NATIONAL SCIENCE FOUNDATION
                                                                           4201 WILSON BOULEVARD
                                                                         ARLINGTON, VIRGINIA 22230

                                                                             10 September 200 1




                                                         1- ;
                                                                  Ii

    Interim Vice preside& for Research
    - - .        -        -

                              - - ..--- - -                   I


            .-
    I--.-   -r..




                                                         I!
                              Re:                    k
                                                 Return of Funds for Grants Awarded to the
                                                                                                           --
                                                 fdk h.
                                                     t
                                                                      - --- - - . -- - -              -.
    Dear

           Thank you for your letter dated 20 August 2001. I would like to emphasize that we
    affirm the conclus?ons in our investigation report, and my letter of 2.5July 2001 should
I   not be inter~retedl,  1 as attenuating the primary responsibility of
    - - . -- ---r --------
                        1 .ir their mischarges      to the NSF grants (as well as their failure to
    provide appropr&te disclosure t~
                                               -         their conflicting financial interests).
                                                                                 -A-




    Nevertheless, - -1 s the grantee, subject to the grant conditions and applicable OMB
                       1'
    Circulars, and unallowable     costs must be reimbursed.
                                                 1
                    1
          We appreciate
                            --
                                 ~fferto repay $7 1,277.65 in unallowable costs. Please
                    b
    forward a check to me, payable to the National Science Foundation, with a breakdown
                   1I
    showing which dollar amounts relate to which NSF awards.
                        I'
                                             I        COI policy concerning SBIR/STTR
            With regard to the provision in
    institutions, if sdmeone from your Office of General Counsel will call me I will endeavor
                      II
    to explain the p~oblem.
                                         I

                                     1
                                         1I                                      Sincerely,


                                                                         -                    -   .
                                                                              Senior Counsel
                                                                        Office of Inspector General
                                     t
                                     I
                                     I

                                     1
                                                   NATIONAL SCIENCE FOUNDATION
                                                       4201 WILSON BOULEVARD
                                                     ARLINGTON, VIRGINIA 22230




            OFFICE OF
        INSPECTOR GENERAL
                                               f
General Counsel

Mice of ;he General Counsel.
                                           1
                                           li                                       r

                      B



                 Re:                       1
                            Retunp of Funds for Grants- -Awarded to the                 ,
                                                                                        --.   -   .   ,
                                                                                                                 -   -   -.
                                                            - -  -         .
                                                                           .   ..

                            for


                                      I!                       - -- - . .-. -
T   - We have com~letedour investigation of -
          .-, and hhve concluded that they wrongfully used National Science
                                                                            .

Foundation (NSF) g-t   funds and wrongfully obtained NSF grants. Our general
conclusions are that              -------.

                    Used NSF grant funds to fiuther their personal financial interests. Besides
                    being uhowable under cost principles applicable to NSF grants, such
                    expendiLes are potentially fraudulent.'
                                  i
                    Used NSF grant funds for expenditures that, while possibly related to their
                                                                                                                                  6



                                                                                                                                  1
                    general/scholarly research pursuits, were clearly unrelated to the objectives
                                                                                                                                  aI
                                                                                                                              *

                    of the          NSF grants. Such costs are unallowable.
                                  N
                              1
                                                                       t       r



                    Failed /to make financial disclosures required for NSF grant proposals,                                           7




                              i
                    resulting in the award of two grants.

             *



                                                                           I


                             1
   As you know,                 the United              S&S    nor Florida is going to pursue             criminal or civil
prosecution in this d t t e r .
        We have concluded that, in violation of NSF proposal cerdfication rea~irements,~
  ,, obtained no financial disclosures from               -- ,  - -.-ybnlirwhc13  for four
                                                                                        --
proposals that - -    ,,omitted, with the result that two grants were awarded to
t o t a b $119,524, which involved signdk.int investigator financial conflicts of interests
which -..dd not reported or resolved as required
                                              - ----  by NSF. In addition, under one of
those grants and two earlier NSF grants.             id $32,334.60 to ---. -
               for costs improperly charged to the NSF grant:. - -I: also charged indirect
c o h to the NSF grants for these costs.)

       Substantial problems with - -- .. policies, procedures, and practices contributed
s&cantly    to each of these outcomes.           ~sresponsible for ensuring that proposals
submitted to NSF b~         omply with all appropriate requirements, and for ensuring that
NSF grant funds received b; -       e expended properly.' We are seelung your views with
                                     -
regard to the amount of funds          vill return to NSF as a result of these improperly
received grants and improper grant expenditures. We would also like information     about
             "-
                                                                            -
steps that     ' 1s taken to ensure that such problems ,will not recur in      )roposals to
NSF and under NSFs grants tc




   See NSF's Grant Policy Manual (GPM) § 510 Conflict of Interest Policies
(http://www.nsf.gov: 8O/bfa/cpo/gpm95/ch5.htm#ch5 -6).
   Accordmg to their budgets, the relevant grants had the following indirect cost rates:

   "The recipient institution (recipient) has full responsibility for the conduct of the project or
activity supported by this award, in accordance with the requirements of this award, and for the
results." Federal Demonstration Partnership General Terms and Conditions (FDP)5 1(a) (9/93
and 7/1/97) (http://www.nsf.gov/home/grantsIgrants_f .
    L         Background
                                  I
              Since 1993, USF Lreceived the following grants from NSF with Drs..             .- l d
                               li
                    as PIS or Co-PIS:
                             Ir
I       A




                                                                  Award
            Title                                   -
                                                    Dates         Number.       -
                                                                                PIS
                                                                                           ..
                                                                                        Amount




The general                                    these grants was the geochemical sampling and
paleomagnetic                                retrieved from the Kamchatka peninsula in far eastern
Russia, in order to                   the understandug of the region's geological history.


                        1                             3
              B.    Pls' Personal Financial Interests
       Drs.                -           have incorporated several private companies,
includmg ---r - --= - - --                      Through geochemical sarnplrng and
paleomapetic dating, the companies seek ore deposits in far eastern Russia and
elsewhere, to obtain exploration andlor exploitation rights either for themselves or on
behalf of other companies.

II,           Violations of NSF Requirements

              A.    Material Omissions
       Since October 1995, NSF has required "each grantee institution employing more
than fifty persons to maintain an appropriate written and enforced policy on conflict of
interest" (COI)which should "require that each investigator disclose to a responsible
representative of the institution all significant h c i a l interests of the investigator that
would reasonably appear to be dected by the research or educational activities funded or
proposed for fun-     by NSF."S The grantee iqstitution must

              review financial disclosures, determine whether a conflict of interest exists,
              and determine what conditions or restrictions, if any, should be imposed by
              the institution to manage, reduce or eliminate such conflict of interest. A
              conflict of interest exists when the reviewer(s) reasonably determines that a
              significant financial interest could directly and sigmficantly &ect the
              design, conduct, or reporting of NSF-funded research or educational
              activitiesO6

NSF will not process a grant proposal submitted without a signed certification of
compliance with this requirement.'      - - 31 policy requires each investigator to "file a
S d c a n t Financial Interest Disclosure, to update it annually, and to modify it, if
Interests change."'

         a'
           submitted four proposals to NSF with -                                  2 ---,
                                                                                  --           PISor
Co-PIS for which        obtained financial disclosures from neither               --.             lor



      GPM $0 5 10.a 6r -.b.
      GPM § 510.d.
'     61Fed. Reg. 34,839 (7/3/96)(hnp://www.nsf-gov/pubs/stis
                                                           19961faqWfaqinfin.txt).
8   USF C01policy, 0-309, § WI1.A (hnp://usfweb.usf.edu/usfgc/gc~p/~enadm/.
                                   C each cover sheet,
                                  On                       -          Authorized Organizational
)               (AOR) ce!kified to the following:
    ~e~reientative
                        1
                        I
            In addition, if the 1applicant
                                  ;          htitution employs more than fifiy persons, the    1

            authorized officd of the applicant institution is cemfying that the
                                11
            institution has implemented a written and enforced conflict of interest
            policy that is ~ o d k t e nwith
                                        t      the provisions of Grant Policy Manual Section
            510; that to the +st of hisher knowledge, all financial disclosures required
            by that conflict of interest polih have been made; and that all identified
                               lt
            conflicts of intepst' will have been satisfactorily managed, reduced or
            eliminated prior $0 the institution's expenditure of any funds under the
            a&d, in accordance with the institution's conflict of interest policy. ,
          . Conflicts which ! x n ~ ~ be  o t satisfactorily managed, reduced or eliminated        .
            must be disclosed to NSF.
                                   f
    NSF funded two of thesell proposals, for a total of $119,524.''

          Under ,  , -
                                  I
                      - COI policy, the investigator is solely responsible for subjectively
                           t
    determining whether -cia1  disclosure is necessary because the investigator's interests
                                  I
            possibly could akect, or be perceived to affect, the results of the research or
            educational acdkties funded or proposed for funding. The Investigator's
                              41
            Interests are related to a research project if the work to be performed under
            the project, or the results of such work, can be expected to have an impact
                             I1
            on the Investigator's Interests.
                           il
                           Jl
    If the investigator reports no interest because he decides that his financial interest could
                              I"
    not possibly be affecte# or be perceived to be affected, then the investigator has complied
    with - - _ policy. Thus, in circumstances
                                          -
                                                    in which an investigator has made no or
    limited financial discl//sures, the     ~olicycan result iF _ - submitting a proposal to
                                                                      .


    NSF for which *relevantinvestigator financial interests were not disclosed and conflicts
                           11
    were not resolved. It appears that this happened in this case.
                              I
           The failure of - - policy to raise and resolve the financial conflicts of interests of
                              .


               - - --- ---I? ------- is particularly troublesome because -- did ha& a policy
                             ss
             . .


    in place for mandatory disclosure of all "outside activity which [sic] the employee should

                          t
    reasonably conclude 'may create a conflict of interest, or which may otherwise interfere

         Proposals
    lo   Proposals                       were funded.
                                                                                                                  •
      with the full performance of the employee's professional or institutional
                        .
      responsibilities . .."11                            apparently disclosed their outside
      activities on these forms, but      had no proced"uRs in place for assessing possible
      conflicts between the disclosed activities and the investigators' proposed or funded
      research activities.''

              If NSF had been aware that       .    - had failed to corn&with its obligation to ensure
      that investigator financial interests had been disclosed and conflicts resolved, NSF would
      not have processed any of the proposals, and therefore would not have awarded the grants
                                                -
      totaling $119,524. Furthermore, if - had ensured through i&COI procedures that it
      received detailed information from                                I        about their personal
      financial interests, and if , - had engaged in appropriate evaluation' of that information,
      we believe it is highly likely that          -:would have learned that :-                     nd
             - - *
 l       -            'id nothing to distinguish their scholarly and personal h c i a l activities.
 I    Minimal scrutiny would have alerted              of the need for inquiry into expenditures by
I     - -- -        -- ---,----under     ,-,their previous and extant awards. If - -,had
                                                                                     --- ---
I!    apprised itself of the ficts of the financial practices of'-        -----         r -----     its
I     AOR would have been unable to provide the certification quoted above and therefore
1     unable to submit proposals                    - - - - -   Accordingly, we believe it would be
'I    appropriate for -     to reimburse NSF   for the   full amount of both awards.




I      11       Aule 6C4-10.005,O (3)(a) (http://www.r             edu/usfgc/usfrules/6c4-10/10-005   .han) .
        lZ Another aspect of - -- ,COI policy, unrelated to this case, is extremely troubling and casts
       =onsiderabledoubt on the care underlyi&. - -- ,c r a b of its policy. The NSF policy excludes
       from the d e e t i o n of " s ~ c a nfinancial
                                             t        interest" "any ownership interests in the institution, if
       the institution is an applicant under the Small Business Innovation Research Program [SBIR] or
       Small Business Technology Transfer Program [STIR]." This simply means that an investigator
       workmg for a company applying for an SBIR or STIR grant from NSF does not need to have
       disclosed to that company any ownership interest he or she has in that company. The SBIR and
       STTR programs are directed toward aiding small businesses, and small business applicants and
       their employees are presumed to have a profit motive.             .
                                                                       - policy states that an investigator
       does not need to disclose "Salary, royalties, or other remuneration from a single business entity or
       any ownership interests in that entity if the entity is an applicant under the Small Business
       Innovation Research Program or Small Business Technology Transfer Prog+akn n u +
     9 astonishmgly-it appears thai             ioes not require an investigator to disclose any financial
       interest in any business that has applied for an SBIR or STTR award from any agency as part of
              assessment of proposals to be submitted by - - ,J NSF.
                                        1
D            B.     Improper Expenditure of NSF Grant Funds
                                        1'                                                                 I


            Under the award jkonditions applicable to - - - s grants from NSF, -                   'is
    responsible for ensuring &at costs charged to the award are allowable, allocable, and
                                    11
    reasonable under ;he applicable cost principles."13                reimbursed :'              a&
                                                                                              ---A,.    .
                -- a to& of $32,334.60 from its NSF grants for costs that were not properly
    chggeable to those grand/ Drr                                .. claim to have believed that it is .
                                        i
    acceptable to: (1)charge NSF grant fundsfor any activities related to the field of research
    in the grant proposal or contemplated future grant proposals; (2) charge NSF grant funds
                                  t
    for per diem expenses at//thesame time they are receiving reimbursement elsewhere for
    those expenses; and (3) charge NSF grant funds for all travel expenses for trips involving
                                BP
    substantial amounts of activity       unrelated to the NSF grant projects.           - ---.*           CIlLU
                               I
                   claim to have       never received grudance from          'mut the proper use of
    & n t funds. They also cl!!irn to have disdosed ample information to             1 the process of
    getting these expendidLs approved, and that nobody af                  undertook even minimal
                              11
    effort to confirm that the expenditures were consistent with the specific NSF grants. In
                             11
    the current circumstances of this matter, we do not need to resolve the extent to which
    the defenses ~roffeied$ Drs                                      are true and absolve them of
    culpability. Our conceftn is that the expendiLres under the NSF grants to
                                               --                                                were  .
    improper and should be repaid by         -

                    1.              I
                            1994 Summer Travel Charged to NSF Award
                                   I
                                                                                     -   --

                               li
                       subrpitted a voucher to        , dated 16 September 1994, requesting
                                                                                  - - ..
    reimbursement hwn the              account corresponding to NSF awarc'             'or an
                               I
    extensive nip he took in the summer of 1994. Starting in
    Greece, Lithuania, western Russia, and back to:' -
                           rI
                                                            re
                                                                         a
                                                                                     flew to
                                                                   followed immediately by a
    round trip to eastern A w i a (via Anchorage AK).
                               J
                               I                                  - .
                            1;
           The proposal for this grant focused exclusively on the collection and d y s i s of
                           41
    samples of xenoli*         from Karnchatka, Russia, and the final droject report deals
    exclusively with xenopths from Kamchatka. The entire first part of the trip-from
    - to Greece to Lithuania
                         1'
                                    to western Russia and back to , -             -had nothurg




         FDP § 2 (h)(1) (9/93 and 7/1/97). .
                           i
    l3
whatever to do with Karnchatka, and charging those expenses to the NSF grant
improper.l4 These charges totaled $6,437.5 1.

       The second part of the m p involved travel to Karnchatka and tlie Khabarovsk
region in eastern Russia. According to the voucher, 4-19 August were spent "coUect[ing]
volcanic samples," which would appe* to be within the scope of the NSF award--except
for the fact that             billed his time and expenses for 10-20August to a company
on behalf of one of his and;         a  -cornpanie~.~
                                                 --             It therefore
                                                                      ,      appears that the
25 days that constituted the second part of this trip involved at the most only six days of
work related to the NSF grant and eight days for De Beers (16 & 20 August, billed to De
Beers, were travel days) .I6 This being the case, it was clearly improper to.charge the NSF
grant for the days spent workxng for De Beers, and it was inappropriate at best to charge
the NSF grant for 4 of the days not spent collecting samples and f o r ' d of the travel
expenses. In our view, the NSF grant should have been ch&ed for no more than 43% of
the expenses for the second part of the trip ((6 days grant-related work) / (14 work days
total)).

         Therefore, we conclude that -.mproperly charged the NSF grant for all of the
 first part of the trip, $6,437.51. For the second part,      'mproperly charged the NSF
 grant for expenses related solely to Dr. Defant's work for DL Beers, $945, and improperly
 charged the NSF grant for the portion of other expenses attributable to his work for De
 Beers, $1,313.63 (57% of $2,304.62). The total amount mischarged to the NSF grant by
'      is $8,696.14.



              -        accompanied              on essentially the same trip, except that
(1) he flew from Moscow directly to Kamchatka, rather than returning to '        or a day
                                                                                    a




    For example, Moscow is the closest Dr.             came to Kamchatka on this trip-more than
4,000 miles away. The amount provided in the budget for this grant for international travel was
for                     to travel to Ad reside in the United States; no funds were provided for
          :                                   ..
            to travel the world to "cillaborate . on volcanic researchn as attested in his travel
voucher. The improper nature of these charges is reinforced by the fact, as discussed in n16
below, that
15     -  -             t charged expenses for two of the days in Lithuania to a private company.
             s submitted an "Expense and Time Reportn on behalf of --, .        --,,    -,
                                                                                         --
                                                                                          ,,
                                                                                           ,
                                                                                           ,,
                                                                                            ,,
                                                                                             ,,
                                                                                              ,,
                                                                                               ,
to a company named                 _-------a

l6 This document also indicates that -   .             charged            for two days of work in
Lithuania--days for which                  .Is0 charged the NSF grant. However, since we have
already determined that of the charges to the NSF grant for that part of the trip were improper
(see text above at n. 14),we need not address those charges separately here.
                                                                           '
                                                         ri       -
                    _ did, and (2) from Khabarovsk,17
                                         - --
        as                                                             cetumed for another
    )                              Il
        sojourn in Mos&w and Lithpania.           ' ' - - submitted a voucher to     dated
        19 September 1994, requesm reimbursement from the - - account corresponding to


              Just as with -                        j(
                                      's experkes. none of Dr. .--= -       ;expenses for the part
        of the trip involving Greece, ~ i t h u a k i ,and Moscow were related to the NSF grant.
        Charging those expenses t o k e NSF grant was improper in the amount of $7,673.40.
                   ..   .
               When I                    arrived in ~ a r n c h ar e~ presume he did 'collect
                                    I
        volcanic samplesn (as statqd on his voucher) in oursuit of activities related to the NSF
        grant-until 10 August, when his and -.                -
                                                         s activities were billed to De Beers as
        described above. ~herefoik,of the $4,613.00 that I:                  :barged for this part
                                               dk
                                                                        *

        of the trip, only 12 days per diem, 12 x $105.00 7 $1,260.00, were arguably properly
                                  /I
        charged to the NSF grant and $3,353.00 were improper."
                                  -1(
                                 I!
               Therefore, the total amount improperly charged to the NSF grant by USF per
        Dr.             -        is $11,0b6.40.
                                               I
               h




                            2.        Marh 1995 Travel Charged to NSF Award                   - ;.   (   '   '- !

               c            -                 1,
                                               I
                                  submitted a voucher dated 21 April 1995 requesting
        reimbursement from the[ - - - :count corresponding to NSF aw&d . .       expenses
I       incurred during a trip tk Kamchatka?via Anchorage and Khabarovsk, from 9-20 March
I        1995. The expenses c&ged
                              1   totaled $1,109.50.

                CJ          .   C$ stated on his voucher that the purpose of this trip was to "fbrther
         develop scientific coUaboration program in volcanologyn by holding seminars and
         collecting samples. However, this was in fact a business trip for which Geoprospects
               _ ----   billed            A
                                    Chilean company called TVX for Ii              -        _ - time.
         Therefore, the entire $1,109.50 charge to the NSF grant by      F per DL         .        ras
         improper.

                                I1
         "  Khabarovsk is the city in eastern Russia to and from which D.,. ..-r-.----.         ..'. .:flew
         en route to and from ~hnchatka.
         l8 Because _                - ?ever traveled directly from the United States to Kamchatka or
         vice versa, and evewhere he traveled involved either exclusive or substantial activity unrelated
         to the NSF grant, weld0 riot believe       of the travel expenses were properly chargeable to the

    a    NSF grant.
                                      i
               3.       June 1999 Travel Charged to NSF Award .. -          I


         Drs.- ------ ---   -   --r         each submitted vouchers to', - , dated 25 May
                                                                            .


1999, apparently requesting advance reimbursement from the" - -ccount corresponding
to NSF awarC - .          For a trip to Australia they took in June 1999. As with the mps to
Greece, Lithuania, and western Russia in the summer of 1994, this entire nip had nothing
to do with-Karnchatkaand therefore nothing to do with the NSF grant. In fact, this was
at least in substantial s art a business trip' by Drs.           - - --= ----   in their roles
with1- - -r---r..-  - .&.            , and they charged this trip to the NSF grant because it

was the o* active grant they had. Therefore, the entire $11,502.56 charge to the NSF
grant by -      per i                      -      _   3~ improper.


III.     Conclusion
         It appears that - - ieceived two grants to-      $119,524 that it would not have
                                               had failed to ensure that D            Ind
received if NSF had been aware that ,
- -- --
    J7
                                                                            ,.
               - xovided the relevant financial information as part of - s COI process.
In addition, under three NSF grants to ,
violation of the COI policy),         ,.
                                    paid $32,334.60 to Drs. -----       --
                                              - (includmg one of the two ,obtained in
                                                                         i.
improper expenses.

        We request a statement of - -     position on its receipt and expenditure of these
funds, and a proposal for the amount that - -
                                           -         ill repay to NSF.19 We also request
information regarding the procedures         ' as or will put in place to properly manage
conflicts of interests and the proper expendike of grant funds.

       If you dispute the factual conclusions we have drawn, please provide specific
documentary evidence supporting your position, as well as complete cunent contact
information for witnesses who can provide specific testimonial evidence supporting your
position.




"  The $32,334.60 constitutes costs that are simply unallowable under federal cost principles and
must be repaid. Along with approximately $14,376.33 of indirect costs, we estimate the total
unallowable costs are $46,710.93. The two grants received in violation of NSFs financial -
disclosure policy total $119,524.00. This, plus the wrongful charges and indirect costs under
grants - - 4 - r '$19,722.54 + $8,677.91 (44%)) and         - -.. ,$1,109.50 + 499.27 (45%))
total $149,533.22.
                                            I1
         We would appreciate receiving your response on or before 27 August 2001. I can
)   bereachedat.-- - - - - - .,,
                               ,            li
                                     ------ OV.
                                            I
                                                           Sincerely,
                                                              A       l


                                        I              /
                                                                  -       -

                                                  d                           ,J.D., Ph.D.
                                                       Senior Counsel
                                        1        Office of Inspector General
                                    I
                                    I
                                    1
                                I
                                I

                                I
                           I'
